<html>
<title> - THE ONE YEAR ANNIVERSARY ON THE TENNESSEE VALLEY AUTHORITY'S KINGSTON ASH SLIDE: EVALUATING CURRENT CLEANUP PROGRESS AND ASSESSING FUTURE ENVIRONMENTAL GOALS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                        THE ONE YEAR ANNIVERSARY
                        ON THE TENNESSEE VALLEY
                          AUTHORITY'S KINGSTON
                               ASH SLIDE:
                       EVALUATING CURRENT CLEANUP
                         PROGRESS AND ASSESSING
                       FUTURE ENVIRONMENTAL GOALS

=======================================================================

                                (111-81)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 9, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
54-0020                   WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)




            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland, Vice     Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Churchman, Michael, Executive Director, Alabama Environmental 
  Council, Birmingham, Alabama...................................     6
Kilgore, Honorable Tom, President and Chief Executive Officer, 
  Tennessee Valley Authority, Knoxville, Tennessee...............     6
Meiburg, Stan, Acting Regional Administrator, Region 4, United 
  States Environmental Protection Agency, Atlanta, Georgia.......     6
Montgomery, P.E., John, Senior Principal, Stantec Consulting 
  Services, Inc., Lexington, Kentucky............................     6
Moore, Honorable Richard, Inspector General, Tennessee Valley 
  Authority, Knoxville, Tennessee................................     6
Turner, Jr., Commissioner Albert, District 1-Perry County, 
  Marion, Alabama................................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    35
Mitchell, Hon. Harry E., of Arizona..............................    36

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Churchman, Michael...............................................    37
Kilgore, Honorable Tom...........................................    67
Meiburg, Stan....................................................    77
Montgomery, P.E., John...........................................    91
Moore, Honorable Richard.........................................   109
Turner, Jr., Commissioner Albert.................................   127

                       SUBMISSIONS FOR THE RECORD

Churchman, Michael, Executive Director, Alabama Environmental 
  Council, Birmingham, Alabama:..................................
      Response to request for information from Hon. Edwards, a 
        Represenative in Congress from the State of Maryland.....    54
      Response to request for information from Subcommittee......    57

                         ADDITION TO THE RECORD

Davis, Hon. Artur, a Representative in Congress from the State of 
  Alabama, letter to the Honorable Lisa Jackson, Administrator, 
  U.S. Environmental Protection Agency...........................   130

[GRAPHIC] [TIFF OMITTED] 54020.098

[GRAPHIC] [TIFF OMITTED] 54020.099

[GRAPHIC] [TIFF OMITTED] 54020.100

[GRAPHIC] [TIFF OMITTED] 54020.101

[GRAPHIC] [TIFF OMITTED] 54020.102

[GRAPHIC] [TIFF OMITTED] 54020.103

[GRAPHIC] [TIFF OMITTED] 54020.104

[GRAPHIC] [TIFF OMITTED] 54020.105

[GRAPHIC] [TIFF OMITTED] 54020.106

[GRAPHIC] [TIFF OMITTED] 54020.107

[GRAPHIC] [TIFF OMITTED] 54020.108

[GRAPHIC] [TIFF OMITTED] 54020.109

[GRAPHIC] [TIFF OMITTED] 54020.110

[GRAPHIC] [TIFF OMITTED] 54020.111



HEARING ON THE ONE YEAR ANNIVERSARY ON THE TENNESSEE VALLEY AUTHORITY'S 
 KINGSTON ASH SLIDE: EVALUATING CURRENT CLEANUP PROGRESS AND ASSESSING 
                       FUTURE ENVIRONMENTAL GOALS

                              ----------                              


                      Wednesday, December 9, 2009,

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [chairwoman of the subcommittee] presiding.
    Ms. Johnson. Good morning. The Committee will come to 
order. Thank you for being here today.
    Our hearing this morning marks the fourth time this 
Subcommittee has exercised its oversight responsibility 
regarding the December 2008 TVA Kingston coal ash spill. 
Today's meeting will assess the adequacy of cleanup operations 
thus far, the structural integrity of TVA's other coal ash 
disposable sites, and explore coal ash disposal in Perry 
County, Alabama.
    This hearing is also being conducted as one of several 
hearings that meet the oversight requirements under clauses 
2(n), (o), and (p) of Rule XI of the Rules of the House of 
Representatives.
    The December 28th, 2008 coal ash spill at the Tennessee 
Valley Authority's Kingston Fossil Plant unleashed a torrent of 
toxic coal ash over the landscape and into nearby water bodies. 
The volume itself is staggering: 5.4 million cubic yards of 
coal ash were released. I have visited Harriman, Tennessee. The 
sheer amount of coal ash sludge is truly staggering. This is 
even more the case when one considers that the vast majority of 
the spilled ash was deposited in the river.
    In the river, the coal ash is out of sight, but it is 
certainly not invisible. Recent toxic release inventory figures 
from TVA indicate that the coal ash spill included 2.5 million 
pounds of toxic materials, such as arsenic, barium, and 
chromium. This is a larger figure than the collective sum of 
the toxics released in 2008 from all power plants combined. 
Because of the physical destruction that took place and the 
potential ecological and human risk presented by the coal ash 
toxics, all of this material must be cleaned up.
    In our last meeting, Mr. Kilgore, TVA's President and CEO, 
publicly committed to restoring the environmental area to its 
natural state, and I welcome that response and look forward to 
overseeing the work they will do there in the response to his 
commitment. I understand that we will hear today that the 
removal of ash from the river is proceeding more or less as 
planned. It is imperative that TVA continues to work with its 
State and Federal agency partners in the removal and cleanup 
operation.
    TVA also needs to ensure that it anticipates and prepares 
for unforeseen eventualities--for example, more rain than 
expected--and properly overseeing its contractors and their 
work. In terms of the cleanup itself, I applaud the work being 
done by EPA in terms of their coordination and management of 
the project. Given EPA's longstanding experience in running 
Superfund cleanups and operations, the work it has done at 
Kingston has shown it was money well spent. This said, the 
Kingston impoundment was only one of many TVA coal ash 
disposable sites.
    An engineering firm, Stantec Consulting, has been 
contracted by TVA to evaluate the structural integrity of other 
TVA impoundments. I look forward to today's testimony from our 
Stantec witness to get a better sense of how stable these 
structures are. It is important to remember, however, that just 
because TVA's impoundment may be stable, it does not mean that 
they are environmentally benign. I will look for assurances 
from EPA and TVA that all TVA impoundments and landfills--
active, future, and closed--will not allow toxic contaminants 
to leach into groundwater supplies in the area.
    I understand that TVA is planning on transitioning to dry 
ash landfills. I believe that it is a promising move. I would 
ask Mr. Kilgore, however, what will become of the wet ash in 
existing impoundments and how the leachate will be prevented 
from contaminating our water supplies.
    Finally, today's hearing will touch on the disposal of 
reclaimed Kingston coal ash in the Arrowhead Landfill in Perry 
County, Alabama. This landfill has provided the surrounding 
community with employment opportunities. We must ensure, 
however, that EPA and the State of Alabama are vigilant in 
ensuring that all disposal, safety, and public health 
protocols, including proper and long-term monitoring, are 
followed to ensure good health of local residents.
    Thank you very much for being here today. I apologize for 
running and being out of breath, and I now yield to the 
Subcommittee's Ranking Member, Mr. Boozman from Arkansas.
    Mr. Boozman. Thank you very much, Madam Chair. As always, 
we appreciate your leadership.
    Today, the Subcommittee continues its review of coal ash 
storage, specifically the December 22nd, 2008 incident at the 
Tennessee Valley Authority's power generating facility in 
Kingston, Tennessee.
    While there have only been a few documented failures of 
coal ash disposal sites, we all hope that what occurred at the 
Kingston coal ash disposal site was an isolated incident.
    The witnesses today will help the Committee evaluate the 
conclusions drawn from the accident, report some of their 
observations about Kingston, and discuss the role played by the 
11,000 residents of Perry, Alabama.
    Moving forward, it appears that the Tennessee Valley 
Authority's Board of Directors and its officers have begun to 
recognize the shortcomings in its existing ash management 
practices, and seem to be making changes to ensure more 
appropriate risk management at its facilities. The Tennessee 
Valley Authority needs to continue to take aggressive steps at 
its other coal ash storage facilities to identify and reduce 
risks to the public and to the environment.
    Lives and property were forever changed by the events of 
December 22nd, 2008. However, there is another side to the 
story. While no one should benefit from another's misfortune, 
Perry County, Alabama has positioned itself to perhaps lead the 
way in the disposal of coal ash. This unique facility will 
allow Perry County to construct new roads, new schools, and 
additional infrastructure.
    By constructing a state of the art landfill, economic 
development opportunities have brought a renewed sense of 
optimism to this small rural county. And I would associate 
myself with the Chairwoman's remarks that certainly all of this 
is great, except adhering to the stringent requirements of 
making sure that it is a safe facility as we move forward.
    So, with that, Madam Chairwoman, I appreciate your holding 
this hearing and certainly look forward to the testimony of our 
witnesses, and with that, I yield back.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Hall.
    Mr. Hall. Thank you, Madam Chair and Ranking Member 
Boozman. I echo both of your sentiments and, just briefly, I am 
looking forward to hearing about the progress of the cleanup at 
the Kingston site. I have driven past it many times during the 
years that I lived in Tennessee. Living in the Hudson Valley, I 
have become more aware over the last couple years of how 
interconnected all of our water is; there is really no 
separating, ultimately, the aquifers we drink from, the rivers 
that run through our communities, and the runoff from various 
industrial processes.
    One of the things I am hoping to hear, that I am sure you 
are learning as you study this, is what alternatives will be in 
the future for disposing of fly ash as we simultaneously are 
looking at carbon capture and sequestration. There has been 
some talk of precipitating combustion products into solids that 
can be mixed with, for instance, paving materials or building 
materials and turning what is seen as a liability into an asset 
in that regard, or at least into a stable form that we don't 
have to worry about being swept away by water.
    So, with that, I yield back the balance of my time.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Mr. Duncan, from Tennessee.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman.
    Certainly Chairman Johnson is a long-time friend of mine, 
and no one could fault her, criticize her for her oversight on 
this situation.
    As I have mentioned several times before, this spill was 
not in my district, but it is close by, and one of my staff 
members went, very shortly after it happened, to the site and 
gave me a detailed briefing. Then, within just a few more days, 
I went down and had a helicopter tour and a briefing, and I was 
very impressed by the fact that there was a war room of 
activity with officials from all sorts of agencies and 
departments from the Federal, State, and local governments. In 
fact, in all this time, I suppose there have been hundreds of 
TVA employees, contractors, and people representing other 
Federal, State, and local agencies involved in this.
    I am told that TVA still estimates that they will spend 
approximately $1 billion in cleaning up this mess, and I assume 
that does not count the time and salaries of all the different 
employees from all the different departments and agencies that 
are spending and have spent on this. I am not sure that there 
has ever been a mess in the history of the world where there 
has been more money spent or more people working to clean up a 
situation than in this regard.
    So I certainly think a lot of progress has been made, but 
it has also been testified at other hearings that this billion 
dollars does not count potential regulatory fines and lawsuits. 
I have expressed this before, that I hope that agencies that 
intend to or that are considering fines for TVA will keep in 
mind a lot of lower income ratepayers who could be affected if 
we get into additional billions in fines and lawsuits.
    Because I was a lawyer and a judge, I raise one other 
concern that probably nobody has thought of, and that is that 
the average Federal judge now tries only 12 jury trials a year, 
and we have seen a dramatic decline in State courts because 
very few jury trials are being tried now compared to, say, 25 
or 30 years ago, or certainly when I first started practicing 
law; and that means that there are many young lawyers out there 
today that never get to court, and I think they are scared to 
go to court, and I hope that they won't give in to exorbitant 
demands just to settle a lawsuit to keep from trying a case. 
That is another concern I have.
    But I will say that there has been a lot of progress made 
and, in fact, as some people know, I spend over half my time in 
my district and people make comments to me every place I go, 
and I have heard almost nothing about this in my district over 
the past few months. Obviously, there was a lot of news about 
this and a lot of comments made in the first few months after 
it happened, but almost no comments now. In fact, Mr. Kilgore, 
I am hearing more about the problem that FEMA has raised about 
the dams not being high enough, and I am pleased that you are 
meeting with the homeowners association at Tellico Village next 
week and I hope you will listen to their concerns.
    But I have, mostly before Mr. Kilgore and the present board 
came, but in past years, I have been pretty critical about 
several things that TVA has done. I have not hesitated to 
criticize TVA. But I also think TVA should be given credit when 
good work is being done, and I don't see how any department or 
agency could have done more than what has been done in this 
situation.
    So I do have to go very shortly to another very important 
hearing, but I have already sat through several hearings and 
meetings and so forth.
    I do have one other concern. I have had several companies 
who have come to me who have said that they can turn this flash 
into very usable valuable products if it is not classified as 
hazardous waste. They say if it is classified as hazardous 
waste, it loses its commercial value. Environmentalists in the 
past have been big advocates of recycling, and I hope that we 
will look closer at getting some sort of valuable use out of 
this material, instead of just dumping it into the ground.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Congressman Hare?
    Mr. Hare. Thank you, Madam Chairwoman. I want to thank you 
and Ranking Member Boozman for holding this important hearing 
today.
    It has been almost one year since the breach in the 
retaining wall at the Kingston Fossil Plant in Harriman, 
Tennessee, an event that resulted in the release of a tidal 
wave of water and ash that sent 5.4 million cubic yards of ash 
and 327 million gallons of water onto adjacent lands and into 
rivers, causing the evacuation of the nearby community and one 
tragic death during the cleanup.
    Following the spill, in May of 2009, the TVA, which owns 
and operates the Kingston Fossil Plant, came to an agreement 
with the Environmental Protection Agency. This agreement set 
the precedent for cleaner procedures from the Emory spill and 
surrounding areas affected by the spill.
    It is with great importance that we meet here today to 
discuss the progress of the cleanup, as well as the new safety 
and security measures that have been put into place to prevent 
such an event from ever happening again. It is my understanding 
that the agreed upon time-critical removal of the ash has been 
occurring steadily, but has slowed in recent weeks. I feel that 
meeting the designated deadline of spring 2010 for the 
completion of those areas designated as time-critical is 
extremely important.
    Madam Chair, as members of the Subcommittee, it is our duty 
to perform due diligence in the oversight of the TVA. We must 
also consider the public and workforce safety, and take a hard 
look at the environmental and economic impacts of this 
independent corporation, which is the Nation's public power 
company.
    I look forward to hearing from all of our witnesses today. 
I welcome you before the Subcommittee.
    And I thank you again, Madam Chairwoman. You have done a 
tremendous job on this issue and I know you will continue to 
push. Thank you so much, and I yield back.
    Ms. Johnson. Thank you very much.
    I will now introduce the panel. We only have one panel. The 
Honorable Tom Kilgore, President and Chief Executive Officer of 
the Tennessee Valley Authority, Knoxville, Tennessee; the 
Honorable Richard Moore, Inspector General, Tennessee Valley 
Authority, Knoxville, Tennessee; Mr. Stan Meiburg, Acting 
Regional Administrator, Region 4, of the United States 
Environmental Protection Agency, Atlanta, Georgia; Commissioner 
Albert Turner, Jr., District 1-Perry County, Marion, Alabama; 
Mr. John Montgomery, Senior Principal of the Stantec Consulting 
Services, Lexington, Kentucky; and Mr. Michael Churchman, 
Executive Director, Alabama Environmental Council, Birmingham, 
Alabama.
    We will proceed with testimony as you are seated, so, Mr. 
Kilgore, you are recognized.

  TESTIMONY OF THE HONORABLE TOM KILGORE, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, TENNESSEE VALLEY AUTHORITY, KNOXVILLE, 
  TENNESSEE; THE HONORABLE RICHARD MOORE, INSPECTOR GENERAL, 
TENNESSEE VALLEY AUTHORITY, KNOXVILLE, TENNESSEE; STAN MEIBURG, 
    ACTING REGIONAL ADMINISTRATOR, REGION 4, UNITED STATES 
ENVIRONMENTAL PROTECTION AGENCY, ATLANTA, GEORGIA; COMMISSIONER 
 ALBERT TURNER, JR., DISTRICT 1-PERRY COUNTY, MARION, ALABAMA; 
  JOHN MONTGOMERY, P.E., SENIOR PRINCIPAL, STANTEC CONSULTING 
  SERVICES, INC., LEXINGTON, KENTUCKY; AND MICHAEL CHURCHMAN, 
EXECUTIVE DIRECTOR, ALABAMA ENVIRONMENTAL COUNCIL, BIRMINGHAM, 
                            ALABAMA

    Mr. Kilgore. Chairwoman Johnson, thank you very much, and 
Ranking Member Boozman and members of the Committee. Thank you 
for the opportunity to update you on the progress TVA is making 
following last year's coal ash spill at the Kingston Fossil 
Plant, as has been mentioned, on December the 22nd of 2008. I 
would like to briefly cover three things with you today: our 
progress in cleaning up the spill, our improvements at other 
impoundments, and the efforts we have underway to improve our 
performance and effectiveness across TVA.
    Since my last appearance in July, TVA has maintained our 
schedule to clean up the 3 million cubic yards of time-critical 
ash that were deposited in the Emory River. We are averaging 
the removal of about 15,000 cubic yards per day and, to date, 
about two-thirds of that ash has been removed. This is a good 
milestone for us and we are on track to complete this progress 
in the spring of 2010.
    The ash recovered from the river is loaded onto trains for 
transport to the Arrowhead Landfill in Perry County, Alabama. 
TVA has closely worked with EPA and the Alabama Department of 
Environmental Management and Perry County officials to ensure 
the safe transport and the disposal of the ash.
    As ash continues to be removed from the Emory River, we are 
planning the next most important step, that is, the cleanup of 
the non-time-critical ash that remains in the northern slue and 
on the land. The engineering evaluation and cost analysis work 
is underway for this step and it will serve as the basis for 
our work going forward.
    Our goal is to have a seamless transition between the time-
critical ash and the non-time-critical ash removal. TVA 
currently estimates the removal of our non-time-critical ash to 
be complete in 2013 and our commitment is to restore the area 
to its natural state as it was before the spill.
    We also continue to work closely with the Roane County 
community, attending public meetings and holding open houses, 
providing independent, confidential, medical evaluations and 
supporting the area's long-term economic development. This 
support and the cooperation of our neighbors has meant a great 
deal to us.
    During the last hearing, I provided some information on 
TVA's other ash impoundments. As I noted then, TVA contracted 
with Stantec in early January of 2009 to conduct an 
independent, third-party analysis of our facilities. Stantec 
has completed an intrusive investigation at our impoundments. 
Our aggressive schedule to incorporate their recommendations is 
ongoing.
    In addition to Kingston, we have already placed almost a 
quarter of a million tons of rock for additional stability and 
removed about 30,000 cubic yards of trees and vegetation to 
allow for better visual inspections.
    To sharpen our management focus on storage facilities, TVA 
created a specific organization called Clean Strategies & 
Project Development, which is responsible for all storage 
impoundments and the Kingston recovery project.
    Also at Stantec's recommendation, TVA personnel who 
maintain the impoundments completed a comprehensive training 
program in September designed to increase the awareness of down 
failure modes, provide an understanding of what to look for in 
their work, and to recognize structural distress.
    In August, TVA announced plans to convert six coal-burning 
plants currently using wet fly ash handling systems to dry. 
This program would close about 18 existing ash ponds and gypsum 
ponds. All of the plans are subject to the completion of the 
required environmental reviews and our obtaining regulatory 
approvals.
    At the TVA Board's direction, we continue to make 
significant strides to implement our agency-wide organizational 
plan focused on change management, performance improvement, and 
compliance. We have strengthened our existing enterprise risk 
management system to further identify our financial and non-
financial risks.
    The real key for us will be to continue using the lessons 
we have learned in the past year and to build and to sustain a 
culture of accountability and high performance. Simply put, our 
goal is to be recognized by our customers, our employees, and 
Valley stakeholders as a company that does its job well.
    In closing, I would like to say again that TVA deeply 
regrets the event that occurred last December, but you have our 
continued commitment to clean up the spill. We have made 
considerable progress this year on many fronts, and our focus 
is unwavering as we work to rebuild the public trust and to 
build a better TVA for the people of the Tennessee Valley.
    Thank you, and I look forward to your questions.
    Ms. Johnson. Thank you very much.
    Mr. Moore.
    Mr. Moore. Madam Chairwoman Johnson, Ranking Member 
Boozman, and members of the Subcommittee, I appreciate the 
opportunity to testify before you on the eve of the one-year 
anniversary of the Kingston ash spill. My written testimony 
covers the specifics of our assessment of the degree to which 
TVA has responded to the findings and recommendations in the 
recent OIG reports concerning the coal ash spill, cleanup 
operations, and TVA's overall environmental management. My 
statement this morning, however, will be broader and a higher 
level analysis of the current status of TVA.
    As you know, my office issued two reports. The first 
report, issued in June of this year, evaluated TVA's initial 
emergency response, response to the media, and reparations to 
the victims and restoration of the community. The second report 
was issued in July of this year and focused on providing an 
independent peer review of the root cause analysis utilizing 
the services of our engineers, Marshall Miller & Associates, in 
reviewing TVA's ash management practices.
    These reports resulted in nine very broad recommendations 
designed to improve specific business processes, develop a more 
robust risk management program, and take actions that would 
change TVA's culture to be more focused on developing sound 
business practices and driving compliance throughout the TVA 
organization.
    Over the past year, we have seen TVA devote an 
extraordinary amount of time, money, and focus to addressing 
not only the recommendations of the Inspector General's Office, 
but also the recommendations of the McKenna Law Firm, which in 
many respects paralleled our findings and recommendations. TVA 
has extracted all of the detailed findings and recommendations, 
and they have cross-referenced the findings to develop a gap 
analysis and a tracking matrix.
    TVA has detailed specific action that needs to be taken to 
address all findings and recommendations. They have contracted 
with a consultant to develop the necessary policies and 
procedures, and they are benchmarking other companies, 
including identifying best practices related to dry ash 
storage.
    TVA has hired another consultant, McKensey & Company, to 
analyze TVA's culture and to assist TVA in effectively changing 
the culture that contributed to the Kingston ash spill.
    Beyond these procedural changes are changes that are 
perhaps more difficult to measure but, in my opinion, are just 
as significant. Changes in personnel, changes in the tempo of 
how quickly things are done, and changes in attitudes are 
evident to us as we track the work of TVA management.
    This all leads me to believe that TVA is marching in the 
right direction. As you know, we have been perhaps TVA's 
harshest critic in terms of how they handled the coal ash 
storage and how they handled the crisis after the fact. In many 
ways, the Kingston ash spill was TVA's darkest hour. Our 
impression now, however, is that TVA management is not just 
reacting to criticism to emerge from a crisis, but they are 
committed to transforming TVA into what we all hope it can be.
    I would like to offer, however, some historical perspective 
on TVA in crisis. As you may know, this is not the first time 
that TVA has been under the microscope, nor the first time that 
findings and recommendations for significant change have been 
made. The McKenna Report aptly points out that in 1987, in 
response to TVA's nuclear safety issues and sustained regular 
increases in TVA rates, the Southern States Energy Alliance 
Board created an advisory committee which found some of the 
same problems with TVA in the 1980s as we are finding today. 
The McKenna Report also notes that my office has issued reports 
citing process problems at TVA that continued to resurface over 
the years.
    While it is true that none of the attempts to reform TVA 
focused on culture and risk to the extent that has now been 
done in the aftermath of the Kingston spill, it is clear that 
there are some reoccurring themes in TVA history. One is that 
TVA has suffered from an insular culture that shuns views 
outside the Valley. This defensive and protectionist philosophy 
has produced a tunnel vision that eschews input that might have 
aided in changing the very culture that contributed to TVA's 
current woes. That same culture resisted system-wide standards 
and accountability. All of this is based on an underlying 
philosophy that TVA's uniqueness as a hybrid government agency 
exempted it from adherence to standards and uniform processes.
    My point here this morning is simply this: The challenge 
for TVA is a culture that is highly resistant to reform. The 
Kingston spill demonstrated that in a dramatic way. Changing a 
culture takes time. The same culture that existed on December 
22nd, 2008, still exists today. Its residual effect is likely 
to be felt for years to come.
    Despite all of this, I remain optimistic that the current 
efforts to effect meaningful changes at TVA will be successful 
for four basic reasons: number one, the kinds of reforms being 
implemented at TVA are system-wide process changes that have 
worked well in private sector companies and that have not had 
the system failures TVA has experienced; number two, TVA 
management has demonstrated a willingness to solicit input from 
culture experts outside the Valley and they appear to be taking 
all of this very seriously; number three, TVA management has 
recently gone through an extremely robust evaluation of risk 
that is unparalleled in TVA history; and, finally, TVA 
management has made personnel changes that, to me, provide 
credible evidence of a commitment to do whatever it takes to 
get this right.
    Ultimately, the Office of the Inspector General will 
measure the process that TVA makes and we will report the facts 
as we find them. We appreciate this Subcommittee's efforts to 
protect the citizens of the Tennessee Valley by focusing on 
these important issues. My office will work with this 
Subcommittee to track TVA's progress and to issue reports that 
may be helpful to you.
    I look forward to answering any questions that you may 
have.
    Ms. Johnson. Thank you very much.
    Mr. Meiburg.
    Mr. Meiburg. Madam Chairwoman, Ranking Member Boozman, and 
members of the Subcommittee, thank you very much for the 
opportunity to testify this morning and thank you for your 
words in your opening statement.
    I would like to update you on EPA's actions in response to 
the coal ash release at the TVA Kingston facility and give an 
overview of the next phase of the cleanup.
    EPA is committed to a cleanup that protects public health 
and the environment, and is consistent with the law and sound 
science. Part of our ongoing responsibility is to inform and 
involve the public and all interested parties in our 
activities.
    The time-critical removal activities are progressing well. 
The objective here is to recover and manage the ash in the 
Emory River, and to minimize the potential for flooding and 
downstream ash migration. EPA has on site both an on-scene 
coordinator overseeing this effort and a community involvement 
coordinator to provide information to the public and local 
officials.
    To date, over 2 million cubic yards of ash have been 
dredged or excavated from the area east of Dike 2 in the river. 
Since May, ash removal has increased from an average of about 
2500 cubic yards per day to about 15,000 cubic yards per day. 
The dredged ash is transported by rail for disposal at the 
Arrowhead Landfill in Perry County, Alabama, a Subtitle D solid 
waste facility permitted to receive such waste. The landfill 
was selected by TVA through competitive bidding and approved by 
EPA. At the current pace, the time-critical removal of the 
material east of Dike 2 will be completed by this coming May.
    Since the release occurred, EPA, TDEC, and TVA have 
participated in extensive sampling and monitoring of the air, 
ash, surface water, and drinking water. There have been no 
exceedances of water quality standards for aquatic life in 
areas of the Emory, Clinch, or Tennessee Rivers that are open 
to the public. There were elevated levels in some samples from 
the Emory and Clinch Rivers right after the spill.
    We recently found out that there were two confirmed samples 
in the Clinch River near the power plant which slightly 
exceeded EPA's arsenic drinking water standards. Additional 
analysis is underway. But samples of treated water at municipal 
water treatment plants, which draw from the Tennessee River 
downstream from the spill, have shown no exceedances of any 
maximum contaminant levels for drinking water.
    Some exceedances of drinking water and aquatic life water 
quality standards have been detected in the northern embayment, 
distilling pond, and in the dredge plume. These areas are 
heavily impacted by the spill and are closed to the public. 
Downstream data indicates that the public and the environment 
continue to be protected.
    Air monitoring results for particulate matter are below the 
National Ambient Air Quality Standards. Air monitoring for 
workers in contact with or close proximity to the ash has shown 
no exceedances of established occupational exposure limits.
    We are preparing to move into the next phase of the 
cleanup, to address the residual ash in the river, ash released 
to embayments west of Dike 2, restoration activities, 
investigation of ecological risks and impacts, and long-term 
human health impacts. EPA uses an Engineering Evaluation/Cost 
Analysis, known as an EE/CA, to evaluate alternatives to do 
this. As required, TVA submitted a draft EE/CA work plan to EPA 
on August 10th. This work plan is now open for public comment. 
Because of high public interest in the site and efforts to 
ensure public participation, EPA extended the original 30-day 
comment period for a total of 60 days for public comment, 
through this December 20th.
    After consideration of comments on the work plan, EPA will 
produce an EE/CA report describing a range of alternatives to 
remove ash west of Dike 2. Following comments on the EE/CA 
report, TVA will submit an action memorandum to EPA that 
responds to public comments and describes the selected response 
actions. TVA can implement the response only after EPA approves 
the action memorandum.
    Public involvement and transparency are very important to 
us. I stress this because the EE/CA raises important choices 
for the non-time-critical removal phase. Options include 
excavation of ash and disposal at the site, excavation and 
disposal offsite, and excavation and disposal offsite of both 
the spilled ash and some additional ash still remaining in the 
failed landfill. Each of these options has advantages and 
drawbacks.
    To help the community understand site activities and 
provide input on the cleanup, EPA assisted TVA in the 
development of its technical assistance plan program that will 
provide the community advisory group with a technical advisor. 
The technical advisor will help the community interpret 
technical information and assist the community with commenting 
on future work plans.
    In closing, I want to thank you again for the opportunity 
to testify and to reiterate EPA's commitment to a comprehensive 
cleanup and the long-term restoration of the area, and I look 
forward to your questions. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Turner.
    Mr. Turner. Madam Chairwoman, members of this Committee, 
the day has come when Perry County, Alabama, the birth home of 
Coretta Scott King, has finally pulled itself up by its own 
bootstraps and has joined in on the American dream. A place 
where the unemployment rate is above 15 percent, but our high 
school graduation rate is above 95 percent.
    Perry County, Alabama is the place where, in the 1970s, had 
more Ph.D.s per capita than any other county in Alabama. Perry 
County, Alabama is the place where the modern Voting Rights 
Movement started in 1965 with the night march and death of 
Jimmy Lee Jackson, who was shot at point blank range for 
seeking the right to vote in a demonstration march led by my 
father Albert Turner, Sr.
    Perry County, Alabama is the only county in the Nation to 
hold an official county holiday celebrating the historic 
election of President Barack Obama. Perry County, Alabama now 
is the first place in the South to construct a state of the art 
landfill that will be an environmental safe disposal site for 
coal ash. The economic development opportunity, along with safe 
environmental management practices has put renewed hope back 
into a once proud county.
    Perry County led the way during the 1960s in the field of 
civil rights and voting rights. We are now poised to lead the 
way in environmental safe disposal of coal ash. The contract 
between TVA and Arrowhead Landfill has provided the county with 
an economic boost, unseen since the State of Texas struck oil.
    The windfall has allowed the county to put together a 
master plan of economic development and infrastructure 
advancements unseen in this rural Alabama county. A county that 
now will have a budget of $8 million a year to service 11,000 
citizens. In plain words, we now have a budget that $8 million 
a year and 11,000 citizens, almost $1 million per 1,000 
citizens. Unheard of. The Perry County Commission is set to 
move our county in a direction that will see a much improved 
community starting with our infrastructure.
    Through President Barack Obama's stimulus package and the 
monies that we have received from the coal ash agreement, we 
have parlayed $300,000 into a $5,000,000 water expansion for 
our residents. Thanks to both the President and TVA's decision 
to dispose of its coal ash in Perry County, now, more than 96 
percent of the residents of Perry County will have clean fresh 
drinking water.
    Thanks to Arrowhead and TVA, the tonnage payments will 
provide our school system with more than $500,000 over the next 
year. These funds saved our school system from massive layoffs 
and the cutting of vital educational after-school programs. 
These funds will keep our school system with a reserve and push 
ahead with plans to keep our system ranked in the top 15 
percent of all school systems in Alabama. Tonnage fees have 
allowed both cities located in Perry County, Marion and 
Uniontown, to meet their obligations and allow room for 
economic growth. The monies have allowed us to seek grants, now 
that we have matching funds as required.
    Now that Perry County is poised to join the ranks of the 
haves, those naysayers shout environmental racism. It would be 
economic racism if EPA or TVA stopped the flow of cash for ash. 
It would be environmental racism if the way the industry, prior 
to Arrowhead Landfill's state of the art facility, be allowed 
to continue to dig a hole in the backyards of African-American 
communities and fill it with water and coal ash.
    There are hundreds of unlined ash ponds around the Country 
that have been in operation for decades. These ash ponds do not 
have the level of controls that are in place at the Perry 
County Arrowhead landfill facility; however, environmentalists 
have not said a word. Now that Perry County stands to make 
millions of dollars per year on the spill in the river, and 
even more from the remainder of ash on site at TVA, 
environmentalists are now concerned about the environment. I 
wonder if the concern is about a once poor economically 
depressed African-American government-run county joining the 
ranks of the affluent, educated, infrastructurally sound, and 
economically poised to move her to the American dream is real 
concern and not the environment.
    Environmentalists groups have not called for a 
congressional hearing. Environmental groups have not called for 
an investigation into the disposal of coal ash. 
Environmentalists have not appeared on any 60 Minutes 
television documentaries to highlight their concerns about 
unlined coal ash ponds. Environmentalists have not requested 
any EPA oversight. No protest by environmentalists or any other 
group over the disposal of coal ash prior to Perry County 
receiving coal ash.
    To this date, there have been no mentions of the effects of 
the legacy ponds that exist in Alabama and across this Country. 
This lack of action by environmentalists leads me to believe 
that all the attention placed on Perry County and its agreement 
with TVA and Arrowhead is about economics, not the environment.
    Since the deployment of the ash to Perry County in June of 
2009, 65 Perry County residents have been employed making more 
than average salaries; the Perry County Commission has received 
more than a half million dollars; the county has expanded its 
water system; new home construction has increased; and there 
have been zero foreclosures. Thirty-six miles of new roads have 
been paved, bond debt payments from our two cities have been 
caught up, and 15 grant applications have been approved ranging 
from housing to health care to education. Now, the Marion 
wastewater treatment facility is in line for necessary upgrades 
with money being received from tonnage payments.
    I come to Washington today to ask that you implement the 
procedures that we have implemented at Arrowhead Landfill as a 
state of the art disposal for coal ash. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Montgomery.
    Mr. Montgomery. Chairwoman Johnson and Ranking Member 
Boozman, thank you and the Subcommittee for holding this 
hearing and providing me the opportunity to testify on behalf 
of Stantec Consulting Services. My name is John Montgomery, and 
I am a senior principal with the firm. I am also a licensed 
engineer with over 22 years of experience in dam and ash 
disposal facility design and management.
    Following the December 22nd, 2008, breach of the ash dredge 
cell at the Tennessee Valley Authority's Kingston Fossil Plant, 
TVA requested Stantec assess the conditions of the coal 
combustion product disposal impoundments at TVA's 11 fossil 
plants. Stantec proposed a four phase approach for the 
assessment program, and the details are provided in the written 
testimony.
    In summary, Phase 1 included a records review of available 
TVA documents and site reconnaissance of the facilities at the 
11 fossil plants. Phase 2 consists of performing geotechnical 
explorations and engineering evaluations, providing 
recommendations for initial renovation options, and offering 
general engineering support.
    Phase 3 includes planning assistance for short-and long-
term coal combustion product management, final design of 
conceptual repairs, preparation of construction plans and 
specifications, cost opinions and permitting assistance. Phase 
4 involves assisting TVA with improving its dam safety program 
by conducting training sessions for applicable TVA staff and 
performing annual facility inspections.
    The current status of the program is as follows: Phase 1 is 
complete and the final report was submitted to TVA on June 
24th, 2009. Phase 2, 3, and 4 are ongoing. Phase 2 activities 
were initiated in early 2009 and it is anticipated that these 
engineering evaluations will be completed during the third 
quarter of 2010; however, the schedule may change depending on 
future findings or conditions not yet determined. The schedule 
for completing Phase 3 activities can't be determined until 
Phase 2 is complete. The initial dam safety training for Phase 
4 has been completed. To date, over 300 TVA staff have received 
training in dam safety inspection and reporting.
    During Phase 1 of the program, Stantec identified the 
following seven system-wide concerns: one, limited record 
drawings and construction testing and observation records; two, 
construction of stacks over ash ponds and the operation of fly 
ash dredge cells; three, tall, unsupported weir structures; 
four, conduit and weir abandonment procedures; five, 
implementation of maintenance recommendations; six, limited 
Operation and Maintenance Manuals and Emergency Action Plans; 
seven, limited geotechnical instrumentation.
    To address these concerns, the following actions have been 
taken or are being taken:
    Geotechnical explorations are being conducted on all 
significant active coal combustion product disposal 
impoundments and fills over sluiced ash ponds; initial 
geotechnical drilling has been completed for impoundments at 10 
of the 11 plants; geotechnical instrumentation for short-and 
long-term monitoring have been installed at all sites; draft 
geotechnical reports have been prepared for four impoundments; 
and Stantec has determined conditions at these four 
impoundments are not similar to the failed Kingston dredge 
cell.
    Slope stability analyses have been completed for nine 
disposal facilities; Stantec has determined the as-found 
conditions at the Paradise Ash Pond meet generally accepted 
slope stability factors of safety. In addition, renovations to 
the Widows Creek Gypsum Stack have been completed and this 
facility currently meets accepted slope stability criteria.
    Significant renovations in design and construction are 
ongoing or completed at various other sites. That work includes 
slope regrading, rock armoring, slope buttressing, spillway 
retrofit and replacement, seepage collection systems, pool 
reductions, and conduit abandonment.
    In addition, Stantec continues to monitor the installed 
geotechnical instrumentation, inventory and inspect conduits, 
perform hydrologic and hydraulic analyses, perform breach 
analyses and develop inundation mapping.
    TVA has completed an initial reassessment of hazard 
classifications and determined four sites have high hazard 
impoundments. Emergency action plans have been prepared for 
these sites.
    In closing, TVA and Stantec have worked together to 
aggressively address the conditions of TVA's coal combustion 
product facilities. To date, 45 work plans have been developed, 
providing recommendations and plans to improve observed 
conditions. Construction associated with 31 of the work plans 
has been completed and is in progress for the remaining 14.
    Again, I appreciate this opportunity and look forward to 
answering your questions. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Michael Churchman.
    Mr. Churchman. Chairwoman Johnson, Ranking Member Boozman, 
and members of the Committee, I appreciate the opportunity to 
travel all the way from Alabama to share comments with you at 
this important hearing. I also appreciate the previous hearings 
and oversight related to the coal ash spill at the TVA's 
Kingston Fossil Plant. I recognize that previous meetings were 
mostly about the spill and subsequent cleanup, and I appreciate 
this hearing bringing in more discussion about the disposal in 
Alabama at the Arrowhead Landfill in Perry County.
    I agree with Commissioner Turner that this has resulted in 
a windfall of funds for Perry County and a number of local 
communities. However, I do not share his enthusiastic opinion 
of this matter, and neither do a large number of people in 
Alabama. As my local congressman and I discussed, this is 
another illustration of our ongoing systemic problem of how we 
structured our rural economies to become so dependent on 
undesirable markets and unsustainable systems.
    However, the fact remains that when I attended a brief 
meeting in Uniontown in Perry County on September the 16th, I 
heard a lot of residents of Perry County that still had a lot 
of questions about this disposal and windfall. Residents seemed 
not to have had all their fears and concerns answered to 
alleviate their anxiety. It appeared to me then, and every time 
I talk to someone from there, that there are more questions 
than there are answers, and it doesn't seem to be subsiding. 
Within the last month, a number of residents have come forward 
with health concerns that did not seem to be present before the 
disposal began.
    I am here to bring a number of concerns to your attention 
that need to be evaluated before this disposal continues any 
further:
    How can removal of coal ash in Roane County be performed 
with such a deliberate containment process to prevent airborne 
exposure and yet the exact opposite is true in Perry County?
    How can individual elements like heavy metals and other 
toxic substances be listed as hazardous when considered 
individually, yet considered non-hazardous solid waste when 
contained within coal ash?
    Are all regulations pertaining to Superfund sites being 
followed according to CERCLA?
    Are the Operating Permits Groundwater Monitoring Parameters 
adequate to protect public health and the environment in Perry 
County?
    How can the Perry County Landfill be found in compliance of 
all applicable State requirements that ``does not currently 
have any relevant violations'' when it is discharging leachate 
to the Marion Wastewater Treatment Plant without a required 
State permit and when the plant has been in violation of its 
NPDES permit since August of 2003?
    Why has the hydrological characterization of the landfill 
site not received careful scrutiny before millions of tons of 
hazardous substances were allowed to be added to the landfill, 
particularly in view of the evidence that monitoring wells 
contained elevated levels of pollutants?
    Why do operating permit's post-closure requirements fail to 
require at least 30 years of post-closure monitoring to protect 
residents when Perry County Associates are long gone?
    Are Solid Waste Disposal Act regulations being enforced and 
is the coal ash waste being ``stored separately from the other 
material there'' as reported in Mr. Tom Kilgore's written 
statement on July 28, 2009 before this very Committee?
    Are all Clean Air Act regulations being enforced and 
monitored to protect public health from toxic exposure?
    Why has this not been identified as an environmental 
justice issue with extra agency support to local communities? 
When waste is being collected in a mostly affluent, white Roane 
County and being disposed in a mostly poor, African-American 
Perry County, this action should be labeled the injustice that 
it is.
    Have EPA, ADEM, TVA, and Perry County Associates attempted 
to alleviate all concerns and questions to Perry County 
citizens who continue to suffer through the worst environmental 
disaster in U.S. history?
    I would not have served the citizens of Alabama to the best 
of my ability had I not asked these questions. Please 
understand that these comments, questions, and extensive 
written statement have been collected in a short period of time 
and may not reflect the full environmental and public health 
impacts of this disposal plan. However, many think there is 
enough reason for this plan to be further scrutinized and 
reviewed before allowing the toxic waste to continue to be 
dumped on the people of Perry County, Alabama.
    I look forward to the good work of this Committee to answer 
these questions, alleviating all public health and 
environmental health for citizens of Perry County, Alabama and 
other citizens across our great State. Thank you for the 
opportunity to address this Committee and I look forward to 
your questions.
    Ms. Johnson. Thank you very much.
    Before we go to questions, I want to recognize our 
distinguished Chair of the full Committee, Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair, and thank you for 
your continued follow-up and vigilance on this very, very 
important issue.
    Our Committee has had a great deal of experience with 
spills and structural failures, whether the Torrey Canyon wreck 
off the shores of Normandy, France that led to the first oil 
spill liability legislation or the Exxon Valdez and the cleanup 
that followed it and the need for a major Coast Guard program 
to clean up oil spills; Katrina and Hugo and other previous 
hurricanes that wrecked devastation; gas pipeline failures that 
we have followed up on; and now this tragedy. Our Committee is 
very familiar with this type of calamity and the effects it has 
on the people, on the economies, and on the lives--especially 
the lives and the safety of communities.
    We want to know that EPA is following up on its job and 
managing its responsibility. We have had several hearings in 
years past on TVA, which is under the jurisdiction of this 
Committee. First on their nuclear reactor program and the very 
considerable failures that TVA experienced. We maintained a 
great vigilance over the response of TVA to getting their 
regulatory program back in order, their oversight program in 
order, and increasing their internal vigilance, as is 
necessary.
    We had, in my congressional district, just a little ahead 
of the Kingston ash tragedy, a similar one on the north shore 
of Lake Superior. In that instance, some of the ash actually 
made its way into the headwaters of one-fifth of all the 
freshwater on the face of the earth; blocked a highway; wiped 
out a shoreline; and dumped toxic ash into Lake Superior. We 
have taken steps in Minnesota, in the State and with regard to 
this mining company and its power plant, to rectify the 
problem.
    We want to be sure that TVA is doing that as well, that EPA 
is following up; that people's lives are not distressed and 
disturbed, as Commissioner Turner has said so well, and that 
the environment is being protected, as Mr. Churchman has 
advocated.
    Wherever there is a failure of human oversight and human 
response, we need to take actions and we need to see that 
institutions and agencies are being responsive. TVA is much 
revered. You can go all throughout the rural south and hear 
people say, as I have heard time and again, before TVA, before 
the Appalachian Regional Commission, the only way up was a bus 
ticket north. Much of the south was characterized, I think as 
Commissioner Turner's testimony suggests, as 80 acres and a 
mule.
    TVA has lifted the sights, lifted the economies, and raised 
the hopes and opportunities for people. We respect TVA--I do 
particularly. I have enormous admiration for what it has 
accomplished. But like all institutions, from time to time, 
there are lapses, and we want to be sure this is only a 
temporary failure.
    So Ms. Johnson's vigilance over this issue derives from the 
longstanding role of this Committee. I want you to understand 
we will stand by you and also make sure that EPA lives up to 
its commitments and TVA lives up to its commitments as well.
    Thank you, Ms. Johnson.
    Ms. Johnson. Thank you very much.
    I will start the first round of questioning.
    Mr. Meiburg, I know that you listened to Mr. Churchman's 
testimony. Do you have any comments you would like to make 
concerning his statements?
    Mr. Meiburg. Madam Chairwoman, I would say a couple of 
things. The first is that we completely agree that with the 
Perry County community, as with any community, we want to make 
sure that any landfill that is sited meets all of our technical 
compliance standards and that the disposal of materials is 
conducted safely. So we very much agree with both he and with 
Commissioner Turner on that point. We are, in fact, exercising 
our oversight vigilantly, together with our partners in 
Alabama, to make sure that that is the case.
    Ms. Johnson. Thank you very much.
    Mr. Kilgore, I noticed that you have a completion time for 
a portion, and then a longer completion time for the other 
portion. Have you made a determination as to how frequently you 
must move the ash off of the site, once again, before it gets 
to a point of spill?
    Mr. Kilgore. I am not sure I understand your question 
totally, but let me try, and then you can elaborate. We have 
made a determination that we have to move faster with getting 
the ash processed and offsite. Right now, the dredging is 
slightly about one percent behind schedule, but it is doing 
well. We have gotten 2 million cubic yards out of the river; we 
have 1 million cubic yards that have been shipped, so that 
means we have 1 million cubic yards that we need to get 
offsite.
    We are working with EPA and TDEC to determine how to move 
that faster. We are building some additional rail facilities so 
that we can begin to move more trains off the site. We were 
averaging about 65 cars a day; yesterday we sent, I think, 105 
cars out. Our attempt is to send at least 105 cars each day to 
keep this from accumulating.
    Did that answer your question, Madam Chairman?
    Ms. Johnson. To a degree. But, if you recall, when you were 
here before, I asked if you would submit a plan where you have 
determined how frequently you must move this ash for it not to 
spill over.
    Mr. Kilgore. Yes, ma'am. We have a plan that calls for us 
to get all the ash out of the river by next spring. We feel 
confident that we will accomplish that. Then we will do the 
non-time-critical ash by 2013, that is, all the ash that is in 
the northern embayment; it is on the land, it is behind the 
dike, so it is not in jeopardy of moving out into the river. So 
our real goal is to move to get all of this out of the river 
before the spring is up so that recreation and other boating 
users can use the river again.
    Ms. Johnson. How are you dealing with the ash that 
continues to accumulate on-site, though, while you are moving 
it out?
    Mr. Kilgore. I am sorry, I missed your question. We are not 
running those units except in emergency. They have run very 
little and only in very, very cold weather or very, very hot 
weather. We got through all the summer with running those very 
little. It is pretty cold back in Tennessee yesterday and, 
really, we aren't running those units. So we put them at the 
bottom of the dispatch order and do not accumulate more ash as 
we are cleaning this out.
    I am sorry I missed your question the first time.
    Ms. Johnson. Now, what about the other TVA sites?
    Mr. Kilgore. We are aggressively looking at the other 
sites, and I would just tell you where we are going to spend 
about $1 billion cleaning up Kingston, we will spend at least 
that much cleaning up the other sites that haven't failed. As 
testimony from Mr. Montgomery indicated, we have drilled 10 of 
the 11 sites; we have Shawnee, I think, that is left to drill.
    We have aggressively, with Stantec's direction, drilled all 
of those to find out not only what is down there, but what we 
need to correct, and we are already working on all of those 
sites. So if you really think about it, we have Kingston that 
we are cleaning up, we are remediating the other ponds and we 
have committed to close wet ponds and convert those to dry ash 
facilities. So those are the three major elements that we are 
doing in our program.
    Ms. Johnson. So you don't anticipate another spill at any 
TVA sites?
    Mr. Kilgore. Madam Chairwoman, I am working as hard as I 
can to make sure this never happens again. I do not want to go 
through this; none of us do. So we are keeping a close eye, 
being very intrusive as far as our investigation is; we are 
looking back. As Mr. Montgomery noted, our records were not 
good, so we are trying to update our records by looking at the 
drilling and we are doing everything we can to make sure that 
this is not a repeatable incident.
    Ms. Johnson. Thank you.
    Mr. Turner.
    Mr. Turner. Yes, ma'am.
    Ms. Johnson. How much of this ash can you accommodate?
    Mr. Turner. All they can send.
    Ms. Johnson. Pardon me?
    Mr. Turner. All that they can send. We have an enormous 
landfill and they have options on thousands of other acres that 
are on this Selma chalk. As you know and others may know, this 
Selma chalk barrier that we have in the black belt cannot be 
used for anything else; it is the ideal soil for this type of 
thing. It would take thousands and thousands of years for water 
to penetrate it.
    So on top of the lining that is in these cells that they 
are building, you still have the natural barrier of Selma 
chalk, which is ideal ground for landfill; and we have no 
problems. EPA and TVA, as well as ADEM, has been very vigilant, 
and they are testing and coming down. There is not a month, 
actually, there is not two weeks that somebody from ADEM, TVA, 
or EPA is not in contact with what is going on in Perry County.
    It amazes me how these people who do not live in Perry 
County, Alabama know so much about what is good for Perry 
County, Alabama. They don't have to worry about people calling 
them at night, 11:00 and 12:00, talking about my well has run 
dry because we don't have clean, fresh drinking water.
    Now, 95 percent, more than 95 percent of the people in our 
county will have this, and this is the godsend. We will take 
all the ash. We have done our own independent test and the ash 
has the components of stuff that is in the ground today. If I 
took a shovel and dug up some dirt, traces of the same elements 
that are found in ash will be found in dirt.
    So I can't see any toxicity levels that are so high that 
are going to cause us--they have been dumping this stuff 30 
miles away from my county line for decades, it is in the 
ground; dig a hole, put some water and put some ash in it, and 
nobody said one word because those counties weren't getting any 
money. Those counties weren't making any progress. Now that our 
county is getting money, making progress, here they come 
running, talking about how bad it is. It wasn't bad 40 years 
ago?
    Ms. Johnson. Who is they that come running?
    Mr. Turner. These environmentalists that come around 
running, talking about you are going to die, you are going to 
drink water. We have a cheese plant in Uniontown next door to 
my mother-in-law's house. Nobody has said a word about that 
cheese plant, and I smell it every time I go to my mother-in-
law's house. That's an excuse for me not going down there 
because of that cheese plant.
    [Laughter.]
    Ms. Johnson. Has EPA looked at this and given their 
approval?
    Mr. Turner. Of the landfill or this cheese plant?
    [Laughter.]
    Ms. Johnson. Both.
    Mr. Turner. They have given their approval of this 
landfill, but I don't think anybody even called EPA about the 
air pollution from this cheese plant. Mr. Churchman hasn't been 
down there; he hasn't said anything about the cheese plant.
    Ms. Johnson. Mr. Churchman, would you like to comment?
    Mr. Churchman. I would just simply add I am not aware of 
anything about the cheese plant specifically. I would say that 
for a number of years a number of environmental organizations, 
if that is who Mr. Turner is referring to, have been concerned 
about coal ash, and there is much documented investigation, 
research, development on the negative impacts, the toxicity of 
such a product and its need to be addressed in a certain way 
that we feel is potentially not being taken care of at this 
time.
    Thank you, Chairwoman.
    Ms. Johnson. The Environmental Protection Agency, does this 
area entail the same region?
    Mr. Turner. Yes, ma'am.
    Ms. Johnson. Excuse me. Mr. Meiburg.
    Mr. Meiburg. I am sorry, when you say this area entails the 
same region, I missed the question.
    Ms. Johnson. Most regional offices take in more than one 
State.
    Mr. Meiburg. Yes, ma'am.
    Ms. Johnson. And I was wondering if this was within the 
same region.
    Mr. Meiburg. Yes, both Tennessee and Alabama are both 
located within Region 4, yes.
    Ms. Johnson. Have you gotten any complaints or have you 
been to check to see about the safety of this storage?
    Mr. Meiburg. Yes, we have. We have sent staff out on a 
number of occasions, most recently last Wednesday, to go look 
and make sure that operations are proceeding as they should be, 
as well as we have oversight conducted by the Alabama 
Department of Environmental Management, which has the 
regulatory authority over the landfill.
    And we believe that the operations--well, first of all, we 
would not have approved the disposal of the ash in the landfill 
itself unless we were satisfied that the landfill itself was 
constructed with appropriate technical standards; and the 
landfill was sited in Perry County and the siting decision is 
not within EPA's jurisdiction, but it was sited in Perry County 
prior to the spill, so it was not built or created for the 
spill. But we made sure that it was constructed appropriately, 
with a clay liner, with a geosynthetic membrane, with leachate 
collection, with financial responsibility, all the kind of 
things you want to make sure that if the ash is disposed there, 
it was properly disposed of.
    The management of it, the information that we have suggests 
that there have been no exceedances of air quality standards 
from monitoring conducted at the landfill and that the disposal 
operations have been proceeding properly. So we and our 
partners in Alabama have been watching this very closely.
    Ms. Johnson. Now, according to Mr. Turner, they can take 
all that they can be supplied with. You have seen this 
location. Does it appear that it has no limit as to how much 
coal ash it can accommodate?
    Mr. Meiburg. The landfill, as it stands now, does have 
additional capacity. I don't remember off the top of my head 
just exactly what the full capacity of the landfill is, but 
there is additional capacity beyond what will be used to 
dispose of the material being transported as part of the time-
critical removal. There has been no decision made about offsite 
transport of material beyond the time-critical removal; that is 
the reference to the EE/CA that I was referring to in my oral 
testimony, that is a decision subsequently about what will 
happen with the remaining ash once the time-critical removal 
phase is finished.
    Ms. Johnson. When I visited, I saw a lot of coal ash. Maybe 
it will look different when I go again, but I am concerned 
about the safety of the storage. Is it located near where there 
are residents?
    Mr. Meiburg. You are talking about the landfill now, and 
not the Kingston plant?
    Ms. Johnson. The landfill where it is going.
    Mr. Meiburg. There are some residences that are within a 
few hundred yards of the facility. It is largely out in a 
predominantly rural area, but there are some residences that 
are within a few hundred yards. There is a 100-yard buffer 
around the landfill itself where there are no residences, but 
there are some down the road from there, yes. And, again, Mr. 
Turner can speak to the proximity of people to the landfill 
itself with more accuracy even than I can.
    Ms. Johnson. Mr. Turner, you are convinced that this is 
safe for all of the citizens in the area?
    Mr. Turner. Yes, ma'am. I wouldn't be here, I wouldn't be 
supporting it if I did not feel that this is the proper way to 
dispose of coal ash. This should be the model of how coal ash 
should be disposed of. In the Alabama legislature, when the 
session comes in in January, there will be a bill put forth in 
the Alabama legislature that will codify the disposal in 
Alabama of coal ash in the manner that it is being disposed of 
at Arrowhead Landfill.
    This is the state of the art. I have looked at other legacy 
ponds that do not have the leachate system, do not have the 
clay buffer up under it like they have at Arrowhead, and I am 
convinced beyond a shadow of a doubt that this is the safest 
way to dispose of coal ash in America.
    Ms. Johnson. Have you been in touch with any of the 
scientists or EPA, or are you just making that assumption?
    Mr. Turner. I have been in touch with EPA, TVA, ADEM. I 
have been in touch with everybody that--University of Alabama's 
geological center to look at the quality of the buffer. I am 
not just going to take somebody's word for it when I am a 
public official charged with being responsible for the citizens 
of Perry County. I am not going to take somebody's word that is 
benefitting from it; the would be benefitting from it. I want 
to make sure that what I say is truthful, make sure what I say 
I can stand behind and go to bed at night, and I sleep very 
well every night knowing that we have coal ash in the ground 
and cash in the bank.
    Ms. Johnson. Any complaints from any of the residents?
    Mr. Turner. I have one lady who came to a commission 
meeting. Every other Tuesday we have commission meetings where 
we have one hour set aside for citizens to discuss any problem. 
In the time period that we have discussed about coal ash, we 
have had one female who has come to the commission meeting, and 
she didn't complain to us about receiving coal ash, she 
complained about how much coal ash would be coming in. She had 
no problem.
    That is the same thing with the landfill. Nobody said they 
don't want us to have a landfill; they just didn't want us to 
have a landfill receiving trash from Tennessee, New York, New 
Jersey. This is an economic venture that we look to profit 
from. Not only are we profiting just from the coal ash being 
disposed of; the property tax every time they bill a sale, it 
increases the property taxes they are paying. It has just been 
a positive windfall and I see no need to declassify it and 
change the classification.
    I hear your people talking about it is toxic ash. There is 
no toxicity. I think those kinds of words do scare people who 
are not as educated about this issue as I am.
    Ms. Johnson. Is there any possibility of any of it leaking 
out or is deep enough to leach into the water system?
    Mr. Turner. There is a possibility that in thousands of 
years, when I am dead and my children are dead, we won't be 
dead from coal ash, it will be from old age. The University of 
Alabama has said that the Selma chalk is the best surface that 
you can put a landfill on. On top of that, the liner on top of 
it collects any water. Then, on top of that, it has a system 
that sucks away the water.
    And, you know, they have this guy running around now 
talking about he is going to sue for the leachate. But the 
ammonia levels at that facility that he talked about had been 
high and had exceeded 35 times prior to the leachate being 
deposited. The company, once they found that breach, they moved 
from depositing that leachate in the Marion facility and moved 
to another facility that has no breaches; and we are working 
now with USDA, with the grant to update our water treatment 
facility in Marion so that we can return those leachate 
collections back to the Marion system.
    Ms. Johnson. What is your goal? Do you have any other 
landfills? Are you planning on building a city of landfills? 
What is your goal?
    Mr. Turner. Well, our goal is to move our county. Before we 
entered in this, we had zero community centers. Now we have 
three on the way being built.
    Ms. Johnson. I don't mean that aspect of it; I am talking 
about collecting this waste.
    Mr. Turner. Well, our goal is to fill the landfill with as 
much waste as it can hold because it is the most 
environmentally safe way to dispose of it. I don't think we 
should be selfish and say only give us two million tons of it. 
Give me all five million tons of it.
    I want to be benevolent with TVA and let them know that 
they are welcome. They have been good corporate members of our 
community; they have helped in numerous ways. They have any 
concern, we have a quarterly meeting with the citizens in Perry 
County, updating them on what is going on at the landfill. They 
are always there; EPA has been there, ADEM has been there, the 
county commission has been there.
    Most of the concerns are still talking to us about why we 
built the landfill, not about the ash. They keep hollering at 
us about we didn't want any landfill. The same 15 people that 
were talking back in 2000, when this landfill was being 
considered, are the same 15 folks that are talking about the 
landfill now. We have moved away from the landfill; we are 
talking about ash, and they have not complained about ash.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. Mr. Shuster has to be 
at another meeting, so I am going to go ahead and defer mine 
down to him and then come back in the rotation.
    Ms. Johnson. Mr. Shuster.
    Mr. Shuster. I thank the Chairwoman and I thank Mr. Boozman 
for doing that.
    Mr. Turner, you are a breath of fresh air coming in here, 
and you are a guy that is out there where the rubber meets the 
road and has to deal with these problems day in and day out, 
and you certainly know what you are talking about and you have 
the facts behind you.
    I am equally concerned about certainly the tragedy happened 
at the TVA, and we need to have oversight, need to fix the 
problem, but my concern is what the EPA is going to do, 
possibly classifying coal ash and other coal combustion 
byproducts as hazardous. That is a big concern because not only 
we don't have enough landfills if it all of a sudden becomes a 
hazardous material, but the way you are storing it seems to 
work.
    I know Pennsylvania, where I am from, has had almost 30 
years of oversight and monitoring of coal ash storage and use, 
and they have not found any degradation to the water, to the 
groundwater. So the proof is in the pudding, I think, in that 
case.
    But there are also about 40 percent of the coal ash 
produced in the United States goes into recycling products in a 
positive way, from mine reclamation projects to wallboard and 
also into transportation construction. And I know there are a 
lot of programs at the EPA and the Federal Highways that 
support these recycling programs.
    So my concern and my question is I know EPA is in the 
process of a rulemaking. If they designate coal ash as a 
hazardous material, my question, Mr. Meiburg, I believe, would 
be what is the impact going to be to recycling?
    Mr. Meiburg. To answer the question about the rule first, 
the Administrator said that we obviously, after a lot of 
review, are trying to propose a rule on the future management 
of coal combustion residuals by the end of the year. Beyond 
that, I really can't say a whole lot about the rule itself.
    I will just simply note that EPA is very aware of the 
potential for appropriate beneficial use of some of these 
materials, and that is something that has been a lot of concern 
to the folks in headquarters who have tried to design the rule. 
Hopefully, there will be some more information on that 
forthcoming as the proposal and a robust opportunity for public 
comment.
    Mr. Shuster. I would hope so, because I view it as a 
potential outcome of saying coal ash that is being stored is 
hazardous, but coal ash that is being recycled is not 
hazardous, and I don't understand how that works. You have two 
trucks that roll out of a plant; one goes to be recycled and 
the other goes to be put in a landfill. The economics of that--
there is no logic, first of all, to it, and then the economics 
of it start to become staggering.
    And then me, as a producer of wallboard, let's say, I 
decide not to use coal ash and my competitor is using it, then 
I will just run an ad campaign saying he is using hazardous 
products; I will destroy his business. So, again, it is 
frightening to think that we come up with that kind of 
illogical ruling and, as I said, I think the proof is out there 
that it can be used and stored in a safe way.
    Again, transportation projects. My concern there, if you 
are going to not be able to use that, that becomes an increase 
in raw materials. On the transportation projects, do you have 
any view on that? Is there any difference in your view?
    Mr. Meiburg. Again, probably my best answer is that there 
will be a proposed rule on that coming out very soon, and I 
should probably defer comments beyond that.
    Mr. Shuster. All right. Well, again, I hope that is taken 
into great consideration. I realize it was a terrible disaster 
that occurred down at the TVA and oversight had lapsed, and we 
need to make sure we are making changes, but I think to say 
that we are going to take a product that has been positively 
used and positively stored for decades is going to be a 
hazardous material, like I said, to me, it just doesn't seem 
there is any logic to that.
    Again, thank you and thank you, Mr. Boozman, for yielding.
    Ms. Johnson. Thank you very much.
    Mr. Hare.
    Mr. Hare. Thank you, Madam Chair.
    Just so I am clear, Mr. Meiburg, do you personally think 
coal ash is a toxic substance now?
    Mr. Meiburg. Again, from my own view, we feel that the 
material at the Kingston site--and that is probably the way to 
best frame this, the material at the Kingston site that is 
being collected out of the river and being transported for 
disposal is being transported and disposed in an appropriate 
way. This is one of those cases where the material is a high 
volume and low concentration of some of the toxic chemicals of 
concern, and you want to make sure, in doing that, that that is 
handled appropriately.
    Beyond the situation at Kingston, there is, as Congressman 
Shuster just said, a rulemaking about the future management of 
this material, which will be coming out very soon. As far as 
the national rulemaking, I should defer comments on that until 
the proposal.
    Mr. Hare. Okay, I appreciate that. Let me ask somebody on 
the panel or, Mr. Meiburg, you. I have a lot of coal-fired 
plants in my district and Southern Illinois, as you know, uses 
a lot of coal. There are some ponds that don't have berms 
around them, but they have coal ash in them. Some of the 
electric companies want to top those off with clay, instead of 
having to move it out, because of the expense. Do you think 
that that is a proper way to be able to do that or do you think 
it ought to go--anybody want to take a shot at that one?
    Mr. Kilgore. I will take a shot at it.
    Mr. Hare. Okay.
    Mr. Kilgore. May I?
    Mr. Hare. Sure. Absolutely.
    Mr. Kilgore. If we have proper monitoring wells under these 
existing facilities so that we know what might be going out the 
bottom. Mr. Turner referred to the Selma chalk. There are 
different impermeabilities under these, so if we are monitoring 
it correctly, then I think, yes, we should be able to submit to 
EPA a plan to close these out with proper monitoring, cap them 
off so that you keep the water off the top and, therefore, they 
are allowed to just exist.
    To me, that is probably safer than trying to move this 
stuff again. But with all the new stuff, we will be able to go 
to lined landfills. We, TVA, are going to dry collection, so 
that keeps the water out of it to start with.
    Mr. Hare. Okay.
    Then I have a question for Mr. Churchman. It is a two-part 
question. Does the operating permit for the Arrowhead Landfill 
issued by the State of Alabama, allow the use of coal ash as an 
alternative daily cover? Is that correct?
    Mr. Churchman. That is something that I do believe that I 
remember seeing, that that is in contradiction. Originally it 
was going to be segregated as a separate material, but now it 
is being left as an open dome.
    Mr. Hare. So why would they allow coal ash to cover coal 
ash?
    Mr. Churchman. I guess I don't know the answer to that 
question. I could look further into, if someone else doesn't.
    Mr. Hare. Mr. Turner, is that correct, that they are 
covering the coal ash with coal ash at the landfill? Do you 
know? And if they are, why would they do that? I mean, it would 
seem to me you would want to cover it with something other than 
coal ash. Maybe I am missing something here.
    Mr. Turner. They are hauling in, they have trucks of dirt 
coming in there. When I am down there--and I visit it at least 
twice a month--I see these big trucks hauling in dirt. They are 
covering up something; they are not covering it with coal ash.
    And they are separating the solid waste material from the 
coal ash. I thought I heard him say that they are mixing it all 
up together. That is not true. The garbage that we get from 
households is being disposed of on another side of the landfill 
and the coal ash is segregated from that. They have an 
operation there that I invite all of you to come on down to 
Alabama and see this thing.
    Mr. Hare. I might do that. I heard you had a pretty good 
football team, by the way.
    Mr. Turner. We do.
    Mr. Hare. Let me just ask you this. If you could, for the 
Committee, because I am just wondering about that. If you could 
just double-check to find out--or if somebody does know here--
whether they are, in effect, at this landfill covering coal ash 
with coal ash.
    Mr. Meiburg. I can perhaps speak to that.
    Mr. Hare. Okay, great.
    Mr. Meiburg. One of the issues of beneficial use of coal 
ash in the past has been as a daily cover, and municipal solid 
waste landfills were using that as cover for municipal waste. 
The plan for the closure of the cells at the landfills, as I 
understand it, has been that the ash itself will be covered 
with soil. But I will be happy to supply additional information 
to you to be precise on that.
    Mr. Hare. Thank you. I would appreciate it.
    Mr. Turner. I can make one phone call and answer that 
question to you before you leave here, if I am allowed to use 
my cell phone.
    Mr. Hare. Well, you can give me a holler later, Mr. Turner. 
That is fine. And, listen, I appreciate your fighting for your 
county. In bad economic times, it is nice to see people that 
actually are going back to work and building things.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Turner, you don't want to talk about the Alabama 
football team too much, because the Chairlady is a Texan. We 
have had extensive testimony, several sessions, and it does 
appear that things are moving in the right direction.
    Mr. Moore, Stantec noted in its testimony that the annual 
inspection reports identified items for maintenance, but there 
was a trend of not executing all of the maintenance 
recommendations. I guess what I would like to know is what the 
role of the TVA IG was in that and if you have had some 
internal assessments. What has been the role? Again, not in an 
accusatory fashion, but how have you kind of responded so that, 
in the future, you will play a better role?
    Mr. Moore. Well, thank you for the question. Our role 
currently--and I will go back in time, but our role currently 
is to have our engineers, as I mentioned earlier, Marshall 
Miller, do a peer review of the work that Stantec has been 
doing, and they have been doing, as you know, excavation work, 
clearing work around some of these impoundments.
    As to our role in retrospect, we depend, frankly, on TVA to 
identify risk in order for us to do our audits and inspections. 
We have 100 people in our office; TVA has about 12,000, 13,000 
people. We try to look around the curve, too; sometimes we get 
that right, sometimes we don't. As you may know, there was an 
opportunity for TVA to spend $25 million to correct this 
problem years ago. I am not sure if our office made that 
recommendation back then, but it would have been followed.
    Mr. Boozman. Okay, very good.
    Mr. Meiburg, this has been a terrible tragedy. It has been, 
also, somewhat of an experiment, though, in the toxicity of the 
coal ash in the sense you have had this tremendous spill, and I 
guess the measuring that we are doing right now is probably 
like no other in the sense of testing and finding out the 
hazardous. Again, I don't want to put words in your mouth, but 
it appears that the toxicity surrounding has not been that 
great. Is that a fair statement?
    Mr. Meiburg. Well, we have been pleased that the results 
downstream from the spill have not shown exceedances, and that 
has been very encouraging. You do see some elevated levels in 
the area right in the stilling pond, which is where the ash 
normally collects.
    Mr. Boozman. Just a massive amount of stuff there.
    Mr. Meiburg. Exactly. And I think for us what that has 
meant is it sort of validated our sense that the most important 
thing we could do was to get the main body of the material out 
of the river, because the longer it sits there, the more 
opportunity you have for something to happen that you don't 
want to.
    So, from our standpoint, that is justified. We have been 
pleased that you have a couple of circumstances here that are 
very helpful, one of which is you have a very high volume of 
water surrounding it, so you get some dilution, and that has 
been helpful. But, still, you really need to get the stuff out 
of the river, and that is where our main emphasis has been.
    Mr. Boozman. Right. Very good.
    Mr. Churchman, it is obvious in Mr. Turner's testimony he 
is concerned about funding his community and things like that. 
I guess it helps us to learn about who funds different areas. 
Can you tell us about your funding, where you get your funds? 
You are, I guess, an environmental advocate group. Can you tell 
us maybe your top two or three funding streams?
    Mr. Churchman. I would say that we are a 501(c)(3) non-
profit organization, statewide organization, environmental 
advocacy in the State of Alabama. We receive funding from 
numerous individuals, corporate, some small company donations, 
one local municipality for helping with recycling efforts and 
different things like that. I can provide you with more 
specific information if you would like to hear more about that.
    Mr. Boozman. Are you anti-coal, are you anti-coal-fired?
    Mr. Churchman. We are interested in environmentally 
sustainable efficient and renewable uses of energy.
    Mr. Boozman. So, as far as coal-fired plants, do you feel 
like we need to get rid of those or not?
    Mr. Churchman. I think that there are a number of 
detrimental impacts to the full life cycle of coal, and I think 
that this is an illustration of one of those. So I would say 
that I am very enthusiastic about moving forward towards a 
cleaner energy system.
    Mr. Boozman. To nuclear or----
    Mr. Churchman. There are a lot of different options and I 
think----
    Mr. Boozman. Are you anti-nuclear also?
    Mr. Churchman. I am not necessarily anti-nuclear. I would 
say that there are a lot of options that are going to have to 
be implemented, that are going to have to be looked at very 
closely.
    Mr. Boozman. Again, this bothers me, your question 10: Why 
has this not been identified as an environmental justice issue 
with extra agency support to local communities? When waste is 
being collected in a mostly affluent, white Roane County and 
being disposed in a mostly poor, African-American Perry County, 
this action should be labeled for what it is.
    I don't really understand, in the sense that, for years and 
years the waste was deposited in Roane County, unlined, just 
dumped there. Then, all of a sudden we have this environmental 
accident, so then we have to find a place to put it. The mayor 
is begging for it and you are implying that there is some sort 
of racial thing in that regard. That makes no sense to me at 
all.
    Mr. Churchman. I would say that, first of all, I think that 
there is a lot of concerns about coal ash to begin with.
    Mr. Boozman. Yes, but you agree this was stored unlined and 
would still be stored there right now if it hadn't been for the 
incident that occurred.
    Mr. Churchman. And as I would mention, I would agree that I 
don't think that that is the proper way to store it. I think 
that we need to look at other ways----
    Mr. Boozman. Okay, but how are we----
    Mr. Churchman. And in this particular incident, what I 
would say is that it seems like an environmental injustice 
whenever there are a number of permitted landfills in 
Tennessee, is my understanding, that could accept that 
material, there are other materials----
    Mr. Boozman. But your implication from the question--the 
way you worded it is affluent, white Roane County. That is not 
what you are saying. The implications there is something 
totally different. So, again, I resent that. I think that you 
are trying to just dredge up things that are very inappropriate 
to be dredged up to make your point.
    Mr. Churchman. I would say, after attending the hearing, 
that there are a number of people that feel like this is--that 
people were taken advantage of by it going into this community 
that doesn't always have enough people to speak up for this 
issue that has gone on.
    Mr. Boozman. Even though, like I say, it was stored in 
affluent, white Roane County and would still be stored there if 
it hadn't been for this.
    What do you think about this, Mr. Turner?
    Mr. Turner. I think you are right, Congressman. This 
testimony is way off base. He doesn't live in Perry County. We 
have 11,000 residents. In the meeting he attended, we may have 
had 75 folks there. I get elected there every six years, and 
since 2000 I have been getting 80 percent. Just had an election 
last year where I won with 85 percent, and I have been speaking 
in support of landfill and coal ash ever since I heard of it. 
So I don't think all the people in Perry County are so 
distraught.
    This may be the same group that wants to settle and go away 
if we could somehow cut them in financially. I have gotten some 
calls where if you all help us financially, we will go away; 
they leave a message on my phone. I tell you, this sounds like 
some of those kinds of calls that want to go away if they can 
get in on the windfall. So I am not going to--they can go away, 
but they certainly are not going to get in on the windfall. I 
want them to know that today.
    Mr. Boozman. Thank you, Mr. Turner.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    Mr. Griffith.
    Mr. Griffith. Thank you, Madam Chair. I appreciate the 
diligence that this Committee has exhibited in this entire 
situation. But I do think it is an opportunity for us to see 
how a crisis can be handled in a very positive, proactive way. 
I think it sets the stage and sets the bar very, very high, 
because we are going to have these accidents periodically in 
America based on our history of manufacturing and economic 
development. All over the geography of the United States we 
have potential Kingstons that might occur, and I think this 
sets the stage for how we might handle them and how we might 
prevent them.
    I might say that, as the State Senator in Alabama, we were 
very much aware of the landfill. It is a state of the art $58 
million landfill that takes wastes from all States east of the 
Mississippi and all States lined by the Mississippi River. The 
dumping in the landfill is monitored by GPS, it is mapped; it 
is a state of the art facility, so if you have in your head 
that there is a big levee somewhere and the trucks are backing 
up and dumping it and racing off, you are mistaken. So we need 
landfills; we have to have them. We appreciate the EPA and ADEM 
and their diligence there.
    I particularly want to commend the TVA's response. They 
have been frank, they have been honest. They have never denied 
that it was a tragedy; they have never denied that it was 
something to correct; and they have never denied that they 
wanted to prevent this in the future. It is a refreshing 
response from a large corporate entity in America, and I think 
it changes the tone.
    I will say to Mr. Churchman, we have a lot in common. I am 
familiar with Louisiana College and I might say that I was a 
Boy Scout as well. I am a board certified radiation oncologist, 
very concerned with heavy metal; I am a cell biologist and a 
physicist. I have been monitoring this very, very carefully, so 
I am very, very tuned in to what may be situations that may 
cause malignant disease. I was interested in your bio, however, 
on Twitter. My bio is I'm a tree-hugging, dirt-worshiping, 
water-loving climate protecting fool. So you may bring a little 
bias here; I am not sure, just my opinion on that.
    Mr. Churchman. As I think everybody on the Committee 
probably would also bring their own biases as well.
    Mr. Griffith. I hear you. But I think it is good to have 
differences of opinion. Madam Chair has encouraged it and we 
are going to live in a part of the transitioning into 
sensitivity to the environment, so we appreciate your. But we 
also appreciate the corporate response, and I think our 
environmental groups need to understand that there are some 
very, very good and sensitive people running our companies in 
America today, and they are not looking for a shortcut.
    So we appreciate the panel testifying today.
    Mr. Turner, 95 percent graduation rate. We ought to accept 
that as a standard for the rest of Alabama. Appreciate that.
    Madam Chair, I return my time. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Madam Chair.
    Commissioner Turner, is this a--does Marion own this 
landfill or is this a privately owned landfill?
    Mr. Turner. No, this is a privately owned landfill. Perry 
County receives what we will call a tipping fee from them on 
the per tonnage amount of deposits that are left in the 
landfill.
    Mr. Westmoreland. So it is a privately owned landfill and 
you just receive a tipping fee. Do you share that tipping fee 
with other cities surrounding there?
    Mr. Turner. Yes, sir. We are giving them an opportunity to 
be good stewards. We have given $400,000 to the two 
municipalities and $550,000 to our school district, and that 
will leave us roughly about $2 million in the county coffins 
that we will use to spur on economic development in our county.
    Mr. Westmoreland. Mr. Churchman, I kind of take the 
opposite argue with you. I would think that there would be a 
lot of communities such as Commissioner Turners wanting to get 
that revenue that had some facility.
    Mr. Kilgore, how was it determined that this waste was 
going to go to Alabama? How was that determined? Because I am 
sure there are other sites closer that would have maybe enjoyed 
some of this revenue benefit from this.
    Mr. Kilgore. We did a request for bids and we got bid 
packages in. But you said closer. There were not other 
permitted facilities closer than the Perry County; we had one 
in Georgia and one in Alabama that wound up being the finalists 
for this, and we selected the Perry County after an 
investigation to look at their permits, talk to EPA and ADEM, 
and see that everything was in order.
    Mr. Westmoreland. So Georgia did have a facility? We have a 
good football team too, but was it just a straight bid 
situation is the reason that Perry, Alabama got it?
    Mr. Kilgore. I don't know the exact answer on that, but it 
was not just cost; it was quality and the permitting, so we did 
a bid evaluation and I do know that cost wasn't the only thing 
there.
    Mr. Westmoreland. Okay. And could you just let me know just 
what those qualifications may have been? Mr. Kilgore, one other 
thing. Are you doing the same bidding for removal of this, as 
far as who is actually removing the ash from the site?
    Mr. Kilgore. We do have a contractor there and TVA 
personnel are working on that. There is only one rail line out, 
so basically we had to do a negotiated contract with Norfolk 
Southern; they are hauling all of the ash out, but we do have 
another contractor that is helping us load those trains.
    Mr. Westmoreland. Mr. Meiburg, I will ask you the same 
question. What did the EPA--what kind of input did you have 
into it as far as what type of site this would go to?
    Mr. Meiburg. Well, we had to look at it from the standpoint 
primarily of the technical side. There was a landfill, an 
appropriately constructed landfill that had the requisite 
liners, the leachate collection and financial responsibility 
and good compliance record, so those were the main criteria 
that we applied.
    Mr. Westmoreland. So did you----
    Mr. Meiburg. And I will add one other thing, which is that 
one of the critical criteria turned out to be--and I think this 
was very much in TVA's consideration as well--was the access to 
rail transport, because the alternative to that would have been 
a tremendous amount of truck traffic in Eastern Tennessee, 
which would have had all kinds of adverse environmental 
impacts. So the rail access was very important.
    Mr. Westmoreland. Sure. And I can appreciate that. But what 
I am asking, I guess, is EPA did have some input into what the 
request for bid would have been as far as what that facility 
would have had to have been like.
    Mr. Meiburg. EPA specified in Section 45 of the Order as to 
what characteristics any offsite disposal landfill had to meet. 
Beyond that, the conduct of the bidding process was TVA, once 
the selection was made, it could not be actually transported 
until EPA had approved that.
    Mr. Westmoreland. And one final question just to clarify 
this as far as what Mr. Churchman is inferring. EPA has looked 
at this as far as being classified as a hazardous waste and, 
just for the record, EPA feels very comfortable that this can 
be disposed of in a suitable, specified solid waste landfill 
environment?
    Mr. Meiburg. EPA is very comfortable with where this 
particular material is going. We specified that it had to be in 
compliance with the laws in place for handling this material, 
and this material meets that test.
    Mr. Westmoreland. Thank you, sir.
    I yield back, Madam.
    Ms. Johnson. Thank you very much.
    Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you 
very much for this hearing. I know that this is, I believe, the 
third of the hearings that I have attended on this issue.
    I want to just clarify for the record, Mr. Churchman. Your 
organization, the Alabama Environmental Council, have you, as 
the Executive Director, or any members of your board contacted 
Mr. Turner or any legislator in Perry County asking for a deal 
to be cut and then you would go away?
    Mr. Churchman. No, ma'am.
    Ms. Edwards. Thank you very much. And you are a nonprofit 
organization and you are not required by law to disclose your 
donors because you have a First Amendment right to freedom of 
association. So to the extent that you disclose those, you are 
doing that voluntarily, isn't that correct?
    Mr. Churchman. That is correct.
    Ms. Edwards. Thank you very much.
    Mr. Kilgore, let me just turn to you, because in late 
November there was a high hazard coal ash dam in West Virginia 
that was discovered by the West Virginia Department of 
Environmental Protection to be in a condition that was similar 
to the Kingston pond that failed. It was given an 
unsatisfactory rating by the agency and an order to 
investigate. It appears now that the failure in Kingston may 
not be the result of totally rare circumstances. Do you agree 
that we may find additional dams that have a potential to fail 
similarly?
    Mr. Kilgore. I am not totally familiar with that particular 
incident. I have been following all the other ones that have 
made the news recently and obviously there is a lot more 
attention on those. We have looked at ours and I would say yes 
is the simple answer to your question.
    Ms. Edwards. Thank you. And I would appreciate very much--I 
mean, I looked at the questions that were outlined in Mr. 
Churchman's testimony, and to which he responded; they were his 
own questions. I found them very thoughtful and interesting, 
and I would appreciate a response on the record from you, Mr. 
Kilgore, as to each one of those 11 questions. I think the 
Chairwoman will probably hold the record open for some period 
of time that would allow you to get those responses in to the 
Subcommittee. Thank you.
    I wonder, Mr. Meiburg, in your testimony you note that the 
EPA Region 4 has a ``exceptional working relationship with the 
State of Tennessee'' and I would just note that the State has 
147 major sources with clean water permits, and of these 110, 
or 75 percent of them, are in significant noncompliance in 2008 
according to TVA's own numbers. That is a sizable portion of 
Tennessee's facilities that are on EPA's enforcement watch 
list.
    So I wonder if you could just tell the Subcommittee how 
Region 4 can have such an exceptional relationship when so many 
major facilities are polluting the waters and a sizable number 
have not had any enforcement action taken against them, and 
wonder what it is about that exceptional relationship that 
might in fact get in the way of EPA being able to do its job 
properly in terms of oversight and enforcement?
    Mr. Meiburg. A couple of points on that. One is that the 
reference in the testimony, of course, is to our relationship 
with respect to the management of the incident at Kingston 
itself. We do exercise an oversight responsibility, which we 
take very seriously, with respect to the State of Tennessee on 
all aspects of their operation of delegated environmental 
programs.
    The issue you mention has been an issue across the Country, 
and the Administrator has been very clear that EPA is going to 
step up its oversight with respect to compliance and 
enforcement with the Clean Water Act. Having said that, what we 
find in Tennessee is that the numbers that you quote from come 
from a database which does not necessarily distinguish types of 
violations that had people appear on the list.
    Ms. Edwards. Fair.
    Mr. Meiburg. There are at least three different kinds of 
things: there are some that are sure enough violations that we 
need to be continuing to work on; there are some that result 
from errors in data transfer between the EPA and the State of 
Tennessee, which we very much need to do; and there are some 
that, while all violations are of concern to us, there are some 
that are less significant than others that may be simply some 
data or record-keeping. So we do exercise a review with 
Tennessee, as with all the States in our region, to make sure 
that we are in fact seeing compliance with the environmental 
laws of the United States.
    Ms. Edwards. Thank you. And I do appreciate the leadership 
of Administrator Jackson and that she is going to step up the 
kind of oversight that I think EPA should have been exercising 
for some time.
    I have just another question for you, Commissioner Turner. 
I understand your concerns about moving forward with economic 
development. I am an environmentalist myself, so I am going to 
confess to that. But I happen to believe that it is important 
to try to balance environmental concerns, and particularly 
environmental justice concerns, with positive economic 
development. I don't think any community, however it is 
situated, should have to sacrifice clean water and clean air 
because it wants economic development.
    So I would hope that you are able to reach out fully to 
your community. I encourage you to get a community advisory 
group in Perry County established in the same way that one was 
established in Roane County. As you know, Roane County is 
sending its coal ash to you. I would encourage the TVA, in 
fact, to invest in the same relationship in Perry County that 
it invested in in Roane County.
    I wonder, Commissioner Turner, how many public hearings 
have you held, or what kind of oversight do you exercise on the 
medical and health conditions of the community as related to 
the landfill site?
    Mr. Turner. To our knowledge, we haven't had anyone come 
forth and acknowledge or say that they have been sick because 
of the landfill. The thing just got there in June. You know, 
they act like it has been there for 100 years.
    Ms. Edwards. What is your plan, though, that is in place to 
monitor the health and well-being of the citizens of Perry 
County?
    Mr. Turner. We give every citizen in our county an 
opportunity for one hour every two weeks to come before the 
full Commission and address any concerns. We have, every 
quarter, quarterly meetings at night to go out in the 
community. We don't make them come to Marion, we have it in 
Uniontown at the City Hall, right there. Every quarter they 
come with the meeting.
    We have had our first meeting; we are getting ready for our 
second meeting. We are doing everything we can; we did before 
they came here and we are doing it now. I don't want to make it 
seem like we are sacrificing our citizens. I wouldn't do that, 
sacrifice our citizens for money. We are not in the slave 
trade. So I want to make clear----
    Ms. Edwards. Let me just interrupt you because my time has 
expired. I don't believe that you are--I won't even use the 
term. That is not what I was referring to.
    I will just close by saying to the Chairwoman we might want 
to explore more directly how the Perry County community can 
monitor effectively the health and well being of its citizens 
so that we don't come before this Committee a year from now, 
two years from now and find, in fact, that we are seeing some 
of the same concerns that are raised in Roane County regarding 
the health and well-being and medical condition of the citizens 
of Roane County. I wouldn't want that to happen to Perry County 
as a recipient community, and I think a plan needs to be in 
place early on to do that monitoring so that we have some idea 
of what is happening to the citizenry.
    And I apologize for going over my time, Madam Chairwoman.
    Mr. Turner. Ms. Chairwoman, could I mention that we do have 
a committee already set up, an environmental committee that is 
already set up that meets on a quarterly basis. It is a five 
member committee made up of citizens from each one of the 
commission districts that meet regularly and receive any 
complaints from the landfill, whether it is dealing with coal 
ash or household garbage.
    Ms. Johnson. Thank you to the entire panel.
    Let me ask Mr. Turner one final question. I did have some 
people come by my office and ask if it was possible to get some 
of this for making highway materials. I didn't know, but I did 
refer them to TVA. If you were approached to sell some of this 
or get rid of some of this coal ash, are you amenable?
    Mr. Turner. It does not belong to the county, so they would 
have to deal with Arrowhead Landfill about that; the County 
Commission couldn't make that decision. But if we could make 
that decision, I certainly would sell it if it is used in 
highway material. Concrete now is used in granite. I spent 
thousands of dollars for granite cabinet tops in my house and I 
have coal ash in them.
    Ms. Johnson. Thank you very much.
    Mr. Boozman. In follow-up, Mr. Meiburg, is that one of the 
considerations? My understanding is that a significant 
percentage of this stuff is going into roads and into various 
uses. If it is declared a hazardous waste, would we not have 
more of this type of problem in having to come up with 
landfills and all of the related possibly leaching and that 
regard, as opposed to what so far has been demonstrated to be, 
to the best of my knowledge, a very safe, where once it is part 
of the road or whatever, we really don't have the problem of it 
leaching into this and that? I hope that will be a 
consideration, because what percentage are we talking about, 
30, 40 percent more that we will have to deal with as far as 
finding an application, a landfill or whatever?
    Mr. Meiburg. Congressman Boozman, I know this speaks again 
to the prospective rule with respect to the future management 
of coal combustion residuals, and what I probably can say is 
that EPA is very aware of the beneficial use aspect with 
respect to coal ash, and I can assure you that that is a 
consideration. There will be considerable discussion of that in 
the proposal, about the beneficial use of the material.
    Ms. Johnson. Thank you very much to the panel.
    Thanks to the members. The meeting is adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 54020.001
    
    [GRAPHIC] [TIFF OMITTED] 54020.002
    
    [GRAPHIC] [TIFF OMITTED] 54020.003
    
    [GRAPHIC] [TIFF OMITTED] 54020.004
    
    [GRAPHIC] [TIFF OMITTED] 54020.005
    
    [GRAPHIC] [TIFF OMITTED] 54020.006
    
    [GRAPHIC] [TIFF OMITTED] 54020.007
    
    [GRAPHIC] [TIFF OMITTED] 54020.008
    
    [GRAPHIC] [TIFF OMITTED] 54020.009
    
    [GRAPHIC] [TIFF OMITTED] 54020.010
    
    [GRAPHIC] [TIFF OMITTED] 54020.011
    
    [GRAPHIC] [TIFF OMITTED] 54020.012
    
    [GRAPHIC] [TIFF OMITTED] 54020.013
    
    [GRAPHIC] [TIFF OMITTED] 54020.014
    
    [GRAPHIC] [TIFF OMITTED] 54020.015
    
    [GRAPHIC] [TIFF OMITTED] 54020.016
    
    [GRAPHIC] [TIFF OMITTED] 54020.017
    
    [GRAPHIC] [TIFF OMITTED] 54020.018
    
    [GRAPHIC] [TIFF OMITTED] 54020.019
    
    [GRAPHIC] [TIFF OMITTED] 54020.020
    
    [GRAPHIC] [TIFF OMITTED] 54020.021
    
    [GRAPHIC] [TIFF OMITTED] 54020.022
    
    [GRAPHIC] [TIFF OMITTED] 54020.023
    
    [GRAPHIC] [TIFF OMITTED] 54020.024
    
    [GRAPHIC] [TIFF OMITTED] 54020.025
    
    [GRAPHIC] [TIFF OMITTED] 54020.026
    
    [GRAPHIC] [TIFF OMITTED] 54020.027
    
    [GRAPHIC] [TIFF OMITTED] 54020.028
    
    [GRAPHIC] [TIFF OMITTED] 54020.029
    
    [GRAPHIC] [TIFF OMITTED] 54020.030
    
    [GRAPHIC] [TIFF OMITTED] 54020.031
    
    [GRAPHIC] [TIFF OMITTED] 54020.032
    
    [GRAPHIC] [TIFF OMITTED] 54020.033
    
    [GRAPHIC] [TIFF OMITTED] 54020.034
    
    [GRAPHIC] [TIFF OMITTED] 54020.035
    
    [GRAPHIC] [TIFF OMITTED] 54020.036
    
    [GRAPHIC] [TIFF OMITTED] 54020.037
    
    [GRAPHIC] [TIFF OMITTED] 54020.038
    
    [GRAPHIC] [TIFF OMITTED] 54020.039
    
    [GRAPHIC] [TIFF OMITTED] 54020.040
    
    [GRAPHIC] [TIFF OMITTED] 54020.041
    
    [GRAPHIC] [TIFF OMITTED] 54020.042
    
    [GRAPHIC] [TIFF OMITTED] 54020.043
    
    [GRAPHIC] [TIFF OMITTED] 54020.044
    
    [GRAPHIC] [TIFF OMITTED] 54020.045
    
    [GRAPHIC] [TIFF OMITTED] 54020.046
    
    [GRAPHIC] [TIFF OMITTED] 54020.047
    
    [GRAPHIC] [TIFF OMITTED] 54020.048
    
    [GRAPHIC] [TIFF OMITTED] 54020.049
    
    [GRAPHIC] [TIFF OMITTED] 54020.050
    
    [GRAPHIC] [TIFF OMITTED] 54020.051
    
    [GRAPHIC] [TIFF OMITTED] 54020.052
    
    [GRAPHIC] [TIFF OMITTED] 54020.053
    
    [GRAPHIC] [TIFF OMITTED] 54020.054
    
    [GRAPHIC] [TIFF OMITTED] 54020.055
    
    [GRAPHIC] [TIFF OMITTED] 54020.056
    
    [GRAPHIC] [TIFF OMITTED] 54020.057
    
    [GRAPHIC] [TIFF OMITTED] 54020.058
    
    [GRAPHIC] [TIFF OMITTED] 54020.059
    
    [GRAPHIC] [TIFF OMITTED] 54020.060
    
    [GRAPHIC] [TIFF OMITTED] 54020.061
    
    [GRAPHIC] [TIFF OMITTED] 54020.062
    
    [GRAPHIC] [TIFF OMITTED] 54020.063
    
    [GRAPHIC] [TIFF OMITTED] 54020.064
    
    [GRAPHIC] [TIFF OMITTED] 54020.065
    
    [GRAPHIC] [TIFF OMITTED] 54020.066
    
    [GRAPHIC] [TIFF OMITTED] 54020.067
    
    [GRAPHIC] [TIFF OMITTED] 54020.068
    
    [GRAPHIC] [TIFF OMITTED] 54020.069
    
    [GRAPHIC] [TIFF OMITTED] 54020.070
    
    [GRAPHIC] [TIFF OMITTED] 54020.071
    
    [GRAPHIC] [TIFF OMITTED] 54020.072
    
    [GRAPHIC] [TIFF OMITTED] 54020.073
    
    [GRAPHIC] [TIFF OMITTED] 54020.074
    
    [GRAPHIC] [TIFF OMITTED] 54020.075
    
    [GRAPHIC] [TIFF OMITTED] 54020.076
    
    [GRAPHIC] [TIFF OMITTED] 54020.077
    
    [GRAPHIC] [TIFF OMITTED] 54020.078
    
    [GRAPHIC] [TIFF OMITTED] 54020.079
    
    [GRAPHIC] [TIFF OMITTED] 54020.080
    
    [GRAPHIC] [TIFF OMITTED] 54020.081
    
    [GRAPHIC] [TIFF OMITTED] 54020.082
    
    [GRAPHIC] [TIFF OMITTED] 54020.083
    
    [GRAPHIC] [TIFF OMITTED] 54020.084
    
    [GRAPHIC] [TIFF OMITTED] 54020.085
    
    [GRAPHIC] [TIFF OMITTED] 54020.086
    
    [GRAPHIC] [TIFF OMITTED] 54020.087
    
    [GRAPHIC] [TIFF OMITTED] 54020.088
    
    [GRAPHIC] [TIFF OMITTED] 54020.089
    
    [GRAPHIC] [TIFF OMITTED] 54020.090
    
    [GRAPHIC] [TIFF OMITTED] 54020.091
    
    [GRAPHIC] [TIFF OMITTED] 54020.092
    
    [GRAPHIC] [TIFF OMITTED] 54020.093
    
    [GRAPHIC] [TIFF OMITTED] 54020.094
    
    [GRAPHIC] [TIFF OMITTED] 54020.095
    
    [GRAPHIC] [TIFF OMITTED] 54020.096
    
    [GRAPHIC] [TIFF OMITTED] 54020.097
    
                                    

</pre></body></html>
